HHS/OIG, Audit -"Review of State Fiscal Year 2002 Medicare Upper Payment Calculations and Payments: Kentucky
Medicaid Agency,"(A-04-03-02029)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of State Fiscal Year 2002 Medicare Upper Payment Calculations and Payments:  Kentucky Medicaid Agency," (A-04-03-02029)
August 18, 2004
Complete
Text of Report is available in PDF format (647 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.EXECUTIVE SUMMARY:
This report points out that overall, Kentucky’s inpatient hospital, outpatient hospital, and skilled nursing facility
upper payment limit (UPL) payments were made within the terms of the approved State plan amendments.  In addition,
Kentucky’s methodologies for the UPL calculations were reasonable.  However, some minor computational errors
resulted in UPL overpayments of $75,748 (Federal share $52,926) associated with its inpatient hospital UPL calculations
and $227,916 (Federal share $159,405) associated with its outpatient hospital UPL calculations.  We recommended that
Kentucky reimburse the Federal Government $212,331 for the Federal share of the overpayments.  We also recommended
that Kentucky improve procedures to review the UPL calculations for accuracy.